Case 2:19-cr-00024-SCJ-JCF Document 152 Filed 08/14/20 Page 1 of 6

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
)
)
)
)
)
)
)

UNITED STATES OF AMERICA
V.

MARIA ISABEL GONZALEZ MALDONADO
a/k/a Maria Isabel Gonzalez-Maldonado

JUDGMENT IN A CRIMINAL CASE
Case Number: 2: 19-CR-0024-06-SCJ
USM Number: 72420-019
Michael Saul and Michael Ross
Defendant's Attorney

THE DEFENDANT:
The defendant pleaded guilty to count(s) 1 and 12.
The defendant is adjudicated guilty of these offenses:

Title & Section

Nature of Offense

Offense Ended

21 U.S.C. §§ 846 and
84 l(b)(1 )(C)

Conspiracy to Possess with
Intent to Distribute
Methamphetamine

May 8, 2019

1

21 U.S.C. § 841(b)(l)(B)(viii)

Possession with Intent to
Distribute Methamphetamine

February 17, 2019

12

Count

The defendant is sentenced as provided in pages 2 through 6 of this judgment. The sentence is imposed pursuant
to the Sentencing Reform Act of 1984.
It is ordered that the defendant must notify the United States Attorney for this district within 30 days of any
change of name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed
by this judgment are fully paid. If ordered to pay restitution, the defendant must notify the court and United States
Attorney of material changes in economic circumstances.

August 11, 2020
Date of Imposition of Judgment

s/Steve C. Jones
Signature of Judge

STEVE C. JONES, U. S. DISTRICT JUDGE
Name and Title of Judge

August 14, 2020
Date

Case 2:19-cr-00024-SCJ-JCF Document 152 Filed 08/14/20 Page 2 of 6
DEFENDANT: MARIA ISABEL GONZALEZ MALDONADO
CASE NUMBER: 2-19-CR-0024-06-SCJ

Judgment -- Page 2 of 6

Judgment in a Criminal Case
Sheet 2 -- Imprisonment

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for
a total term of: NINETY-SEVEN (97) MONTHS as to each of Counts 1 and 12, with terms to be served
CONCURRENTY.
The defendant is remanded to the custody of the United States Marshal.

RETURN
I have executed this judgment as follows:

Defendant delivered on
at

--------------

to
, with a certified copy of this judgment.

UNITED STATES MARSHAL

DEPUTY UNITED STATES MARSHAL

Case 2:19-cr-00024-SCJ-JCF Document 152 Filed 08/14/20 Page 3 of 6
DEFENDANT: MARIA ISABEL GONZALEZ MALDONADO
CASE NUMBER: 2-19-CR-0024-06-SCJ

Judgment -- Page 3 of 6

Judgment in a Criminal Case
Sheet 3 -- Supervised Release

SUPERVISED RELEASE
Upon release from imprisonment, you will be on supervised release for a term of: FIVE (5) YEARS as
to each of Counts 1 and 12, with terms to run CONCURRENTLY, if not deported. If deported, defendant
shall serve no term of supervised release.

MANDATORY CONDITIONS

1. You must not commit another federal, state or local crime.
2. You must not unlawfully possess a controlled substance.
3. You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within
15 days of release from imprisonment and at least two periodic drug tests thereafter, as determined by the
court.
4. You must cooperate in the collection of DNA as directed by the probation officer.
You must comply with the standard conditions that have been adopted by this court as well as with any other
conditions on the attached page.

Case 2:19-cr-00024-SCJ-JCF Document 152 Filed 08/14/20 Page 4 of 6
DEFENDANT: MARIA ISABEL GONZALEZ MALDONADO
CASE NUMBER: 2-19-CR-0024-06-SCJ

Judgment -- Page 4 of 6

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1.

2.
3.
4.
5.

6.
7.

8.

9.
10.

11.
12.

13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different
time frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how
and when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission
from the court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If
notifying the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation
officer within 72 hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation
officer to take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you
from doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer
excuses you from doing so. If you plan to change where you work or anything about your work (such as your position or your
job responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer
at least 10 days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of
the probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything
that was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as
nunchakus or tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant
without first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact
the person and confirm that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview of Probation and Supervised
Release Conditions, available at: www.uscourts.gov
I understand that a violation of any of these conditions of supervised release may result in modification, extension, or revocation of my
term of supervision.

Defendant's Signature

- - - - - - - - - - - - - - Date

USPO's Signature

- - - - - - - - - - - - - - Date

Case 2:19-cr-00024-SCJ-JCF Document 152 Filed 08/14/20 Page 5 of 6
DEFENDANT: MARIA ISABEL GONZALEZ MALDONADO
CASE NUMBER: 2-19-CR-0024-06-SCJ

Judgment -- Page 5 of 6

SPECIAL CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following special conditions of supervision.
You must surrender to U.S. Immigration and Customs Enforcement and follow all their instructions and reporting
requirements until any deportation proceedings are completed. If you are ordered deported from the United States,
you must remain outside the United States, unless legally authorized to re-enter. If you re-enter the United States,
you must report to the nearest probation office within 72 hours after you return.

Case 2:19-cr-00024-SCJ-JCF Document 152 Filed 08/14/20 Page 6 of 6
DEFENDANT: MARIA ISABEL GONZALEZ MALDONADO
CASE NUMBER: 2-19-CR-0024-06-SCJ

Judgment -- Page 6 of 6

Judgment in a Criminal Case
Sheet 5 -- Criminal Monetary Penalties

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
Special Assessment
TOTAL

$200.00

*Amy, Vicky, and Andy Child Pornography Victim Assistance Act of 2018, Pub. L. No. 115-299.
**Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22.
***Findings for the total amount oflosses are required under Chapters 109A, 110, 1 lOA, and 113A of Title 18 for offenses committed on or after
September 13, 1994, but before April 23, 1996.

